App. No. _______
-------------------In the
Supreme Court of the United States
-------------------Republic of Sudan, Ministry of External Affairs and
Ministry of the Interior of the Republic of Sudan,
Petitioners,
v.
James Owens, et al.,
Respondents.
-------------------APPLICATION TO EXTEND THE TIME IN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
--------------------

Christopher M. Curran
Counsel of Record
Nicole Erb
Claire A. DeLelle
Nicolle Kownacki
Celia A. McLaughlin
701 Thirteenth Street, NW
Washington, DC 20005
(202) 626-3600
ccurran@whitecase.com

August 23, 2019

Counsel for Petitioners Republic of Sudan,
Ministry of External Affairs and Ministry of
the Interior of the Republic of Sudan

APPLICATION FOR EXTENSION OF TIME
To the Honorable John G. Roberts, Jr., Chief Justice of the United States and Circuit Justice for
the District of Columbia Circuit:
Pursuant to Supreme Court Rules 13.5, 22, and 30.3, Petitioners the Republic of the
Sudan and the Ministry of External Affairs and Ministry of Interior of the Republic of the Sudan
(collectively “Sudan”) respectfully request that the time in which Sudan may file a Petition for a
Writ of Certiorari in this matter be extended 60 days, until Friday, November 16, 2019.
The United States Court of Appeals for the District of Columbia Circuit issued its
decision on May 21, 2019 (attached as Exhibit A). The Court of Appeals denied Sudan’s
petition for rehearing en banc on June 18, 2019 (order attached as Exhibit B). Absent an
extension of time, the Petition for a Writ of Certiorari would be due on September 16, 2019.
Petitioners are filing this Application at least ten days before that date (see Sup. Ct. R. 13.5).
The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1).
BACKGROUND
This case involves a challenge to a decision of the United States Court of Appeals for the
District of Columbia Circuit affirming multi-billion-dollar default judgments issued against
Sudan in six consolidated actions brought under 28 U.S.C. § 1605A, the terrorism exception to
sovereign immunity under the Foreign Sovereign Immunities Act of 1976, as amended (“FSIA”).
(A seventh consolidated action does not involve claims at issue here.)
The plaintiffs whose claims are the subject of the review sought here (“Plaintiffs”) are
non-U.S.-national family members of victims of the August 1998 bombings of the U.S.
Embassies in Kenya and Tanzania perpetrated by al Qaeda and Osama Bin Laden. Plaintiffs
allege that Sudan (and Iran) provided material support to al Qaeda and Bin Laden that

proximately caused the attacks. Sudan vehemently denies these allegations and expresses its
deep condolences to the victims of these horrific attacks and their families.
Plaintiffs’ default judgments were based upon claims of intentional infliction of
emotional distress (“IIED”) under District of Columbia law because Plaintiffs, as foreignnational family members who were not direct victims, did not qualify for the private right of
action under § 1605A(c).

Shortly after the district court entered the default judgments, Sudan

appeared in that court, moved to vacate the default judgments, and timely appealed the entry of
the default judgments. The district court denied the motions to vacate and Sudan appealed. The
D.C. Circuit consolidated Sudan’s appeal of its vacatur motions with Sudan’s direct appeal from
the default judgments. The D.C. Circuit affirmed denial of the vacatur motions and denied
Sudan’s appeal in part. As part of its order, the D.C. Circuit, among other things, certified the
following question to the District of Columbia Court of Appeals, the local jurisdiction’s highest
court, in respect of Plaintiffs in this case: “Must a claimant alleging emotional distress arising
from a terrorist attack that killed or injured a family member have been present at the scene of
the attack in order to state a claim for intentional infliction of emotional distress?” Owens v.
Republic of Sudan (Owens I), 864 F.3d 751, 812 (D.C. Cir. 2017).
In answering the certified question, the D.C. Court of Appeals held “as a general matter”
that an IIED claimant must have been present at the scene in order to have a valid claim under
D.C. law. Republic of Sudan v. Owens (Owens II), 194 A.3d 38, 40-42 (D.C. 2018) (attached as
Exhibit C). The D.C. Court of Appeals then, however, created a special exception to the general
requirement of presence, a new rule that the court termed “The FSIA Terrorism Exception to the
Presence Requirement.” Id. at 42-45. This new rule applies exclusively to foreign sovereigns
over which a court has jurisdiction under 28 U.S.C. § 1605A. Through supplemental briefing,

2

Sudan argued that the D.C. Circuit was prohibited from applying this special exception to the
IIED presence requirement because it was unconstitutional. The D.C. Circuit disagreed, and
Sudan filed a Petition for Rehearing En Banc, which was denied.
The D.C. Circuit’s error resulted in the affirmance of more than $3.9 billion in default
judgments in favor of foreign-national family members who were not present at the scene of the
attacks and undisputedly have no standing to seek a remedy under the private federal right of
action.

Sudan’s Petition for Writ of Certiorari before this Court will argue, among other

arguments, that the D.C. Circuit’s decision, unless corrected, will have established a precedent
that will apply in many future terrorism-related actions under § 1605A despite conflicting with
the Constitution and other principles of federal law.
REASONS JUSTIFYING AN EXTENSION OF TIME
In support of its application for an extension of time to file its Petition, Sudan states as
follows:
1.

The issues and record in this case are sufficiently complex and weighty that

Sudan requires additional time to prepare its Petition for a Writ of Certiorari.
a. This case involves issues of profound importance in the area of terrorism
litigation under the FSIA. The United States District Court for the District of
Columbia is the default venue for cases against foreign sovereigns. 28 U.S.C.
§ 1391(f).

Accordingly, the D.C. Circuit’s passive acceptance of the

constitutionality of the District of Columbia’s new rule not only has significant
implications for over $3.9 billion in default judgments in this case, but also
potentially affects state-law claims brought by any foreign-national family
members in terrorism cases against foreign sovereigns more generally.

3

b. The case presents complex constitutional and federal-law issues involving foreign
relations and retroactive liability for the conduct of foreign sovereigns.
Specifically, the “FSIA Terrorism Exception to the Presence Requirement” that
the D.C. Court of Appeals created (i) impermissibly encroaches upon the federal
foreign-affairs powers; (ii) conflicts with — and is therefore superseded by —
federal law requiring that foreign states be liable to the same extent as private
individuals in like circumstances; and (iii) would retroactively increase Sudan’s
liability for past conduct, in conflict with longstanding legal principles. The
decision of the D.C. Circuit to apply the unconstitutional rule is not merely an
instance of injustice to Sudan, a foreign sovereign with which the United States
has warming relations. See Exec. Order No. 13,761, 82 Fed. Reg. 5331 (Jan. 13,
2017) (lifting certain sanctions against Sudan). Unless corrected, the decision
also threatens reciprocal consequences for the United States as it defends itself in
litigation in foreign courts. E.g., Bolivarian Republic of Venezuela v. Helmerich
& Payne Int’l Drilling Co., 137 S. Ct. 1312, 1321-22 (2017) (observing that
decisions by U.S. courts against foreign states may be applied reciprocally by
foreign courts against the United States).
2.

In addition, Counsel must coordinate extensively with overseas client

representatives who are in the midst of a governmental transition, which may complicate
counsel’s ability to finalize the intended Petition by September 16.
3.

Counsel also has a heavy caseload with preexisting deadlines that interfere with

the current deadline for the petition in this case.

4

CONCLUSION
For the foregoing reasons, Sudan respectfully requests that this Court grant Sudan a 60day extension of time, to and including November 16, 2019, in which to file its Petition for a
Writ of Certiorari.

Sudan expressly reserves all of its rights, defenses, privileges, and

immunities, including without limitation the defense of sovereign immunity.

Christopher M. Curran
Counsel of Record
Nicole Erb
Claire A. DeLelle
Nicolle Kownacki
Celia A. McLaughlin
701 Thirteenth Street, NW
Washington, DC 20005
(202) 626-3600
ccurran@whitecase.com

August 23, 2019

Counsel for Petitioners Republic of Sudan,
Ministry of External Affairs and Ministry of
the Interior of the Republic of Sudan

5

Exhibit A

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued October 11, 2016

Decided May 21, 2019

No. 14-5105
JAMES OWENS, ET AL.,
APPELLEES
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS AND
MINISTRY OF THE INTERIOR OF THE REPUBLIC OF THE SUDAN,
APPELLANTS

Consolidated with 14-5106, 14-5107, 14-7124, 14-7125,
14-7127, 14-7128, 14-7207, 16-7044, 16-7045, 16-7046,
16-7048, 16-7049, 16-7050, 16-7052
Appeals from the United States District Court
for the District of Columbia
(No. 1:01-cv-02244)
(No. 1:08-cv-01377)
(No. 1:10-cv-00356)
(No. 1:12-cv-01224)
(No. 1:08-cv-01349)
(No. 1:08-cv-01361)
(No. 1:08-cv-01380)

Page 1 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

2
Christopher M. Curran, Nicole Erb, Claire A. DeLelle,
and Celia A. McLaughlin were on the supplemental brief for
appellants. Bruce E. Fein entered an appearance.
Stuart H. Newberger, Clifton E. Elgarten, Aryeh S.
Portnoy, Emily Alban, John L. Murino, Matthew D. McGill,
Lochlan F. Shelfer, Steven R. Perles, Edward B. MacAllister,
John Vail, Thomas Fortune Fay, Jane Carol Norman,
Michael J. Miller, and David J. Dickens were on the
supplemental brief for appellees. Annie P. Kaplan, John D.
Aldock, and Stephen A. Saltzburg, entered appearances.
Before: HENDERSON and ROGERS, Circuit Judges, and
GINSBURG, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
GINSBURG.
GINSBURG, Senior Circuit Judge: The court originally
heard this appeal during the 2016-17 term. See 864 F.3d 751
(2017). In the resulting order we certified to the D.C. Court
of Appeals the following question regarding the plaintiffs’
intentional infliction of emotional distress (IIED) claims:
“Must a claimant alleging emotional distress arising from a
terrorist attack that killed or injured a family member have
been present at the scene of the attack in order to state a claim
for intentional infliction of emotional distress?” The D.C.
Court of Appeals has now answered the question in the
negative. See Republic of Sudan v. Owens, 194 A.3d 38, 39
(2018). Sudan nonetheless asks us not to accept the D.C.
court’s answer on the grounds that it encroaches upon the
federal government’s foreign affairs power, impermissibly
discriminates against certain foreign sovereigns, and violates
the presumption against retroactivity. For the reasons that

Page 2 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

3
follow, we reject Sudan’s arguments and affirm the default
judgments with respect to the plaintiffs’ IIED claims.
I. Background
The underlying facts and the history of this litigation are
recited at length in our initial opinion. 864 F.3d at 762-69.
Here we briefly summarize and highlight matters relevant to
Sudan’s present challenge.
A. Litigation History
The cases in this consolidated appeal are among the many
lawsuits arising out of the August 1998 bombings of the U.S.
embassies in Nairobi, Kenya and Dar es Salaam, Tanzania,
which were committed by al Qaeda. Id. at 762. Beginning in
2001, victims of the bombings and their family members
brought suits against the Republic of Sudan and the Islamic
Republic of Iran for providing material support to al Qaeda.
Id. at 765-66. They were able to do so through the so-called
“terrorism exception” in the Foreign Sovereign Immunities
Act (FSIA), which covers suits against state sponsors of
terrorism for “personal injury or death” arising out of certain
acts. Id. at 762; see 28 U.S.C. § 1605A(a).
The original terrorism exception was codified as a
subsection of 28 U.S.C. § 1605, alongside all the other
exceptions to the jurisdictional immunity of foreign states.
864 F.3d at 763. Under that scheme, a plaintiff suing a
foreign sovereign for acts of state-sponsored terrorism had to
rely solely upon state substantive law; this is known as the
“pass-through” approach. Id. at 764. In 2008 the Congress
moved the terrorism exception from § 1605 to the newly
enacted § 1605A. National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 3,

Page 3 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

4
338-44 (2008). Unlike the other exceptions in the FSIA, the
§ 1605A terrorism exception not only withdraws sovereign
immunity and grants the federal courts jurisdiction over
qualifying cases, it also provides a substantive cause of action
against foreign sovereigns. 864 F.3d at 765; see § 1605A(c).
In addition, as we held in our earlier opinion, plaintiffs can
continue to bring pass-through state law claims through the
jurisdictional grant in § 1605A. 864 F.3d at 808; see
§ 1605A(a).
Because Sudan failed to appear and defend against the
claims, in May 2003 the district court entered an order of
default. Over the next decade, the litigation took many twists
and turns, producing a tangle of related actions and appeals.
See 864 F.3d at 765-68. Finally, in 2014, the district court
entered final judgments in favor of the plaintiffs. The total
damages awarded came to $10.2 billion, $4.3 billion of which
were punitive damages. Id. at 767.
In April 2015 Sudan filed Rule 60(b) motions to vacate
the default judgments; it also appealed each case, but we
stayed those appeals pending resolution of the motions to
vacate. Id. at 768. In those motions, Sudan raised both
jurisdictional and nonjurisdictional arguments, none of which
persuaded the district court. Sudan appealed the district
court’s denials of its motions to vacate, and those appeals
were consolidated with the earlier appeals, all of which were
addressed in our prior opinion. Id.
B. This Appeal
In our 2017 decision, we affirmed the default judgments
in most respects. We exercised our discretion to reach the
merits of Sudan’s argument for invalidating the family
members’ state law claims for IIED on the ground that “D.C.

Page 4 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

5
tort law requires a plaintiff to be present at the scene of a
defendant’s outrageous and extreme conduct in order to
recover for IIED,” even though it is nonjurisdictional and
would ordinarily have been forfeited by Sudan’s default. Id.
at 809-11. We did not resolve that issue, however, because
we were “genuinely uncertain whether the D.C. Court of
Appeals would apply the presence requirement in the Second
Restatement of Torts to preclude recovery for IIED by family
members absent from the scene of a terrorist bombing.” Id. at
812. Instead we certified the question to that court. Id.
In September 2018, the D.C. Court of Appeals answered
the certified question, in a word: “No.” Sudan, 194 A.3d at
39. On its way to doing so, the court first adopted § 46(2)(a)
of the Second Restatement as the general rule for IIED claims
under D.C. law. Id. at 41. That is, it held that when
emotional distress is caused by conduct directed at a member
of a plaintiff’s family, the plaintiff must be “present at the
time” of the conduct in order to make out an IIED claim. Id.
The court then carved out an exception to the general rule for
cases brought under § 1605A, which it referred to as “the
FSIA Terrorism Exception” to the presence requirement. Id.
at 42. Sudan now urges us not to apply the exception in this
case.
II. Analysis
Sudan makes three arguments why this court should not
apply the D.C. court’s ruling here: It (1) “impermissibly
encroaches upon the federal foreign affairs powers”; (2)
violates the non-discrimination principle in the FSIA, i.e., the
principle that a foreign state is liable “to the same extent as a
private individual under like circumstances”; and (3) would, if
applied in this case, increase Sudan’s liability for past
conduct, in contravention of the presumption against

Page 5 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

6
retroactivity. All of these arguments depend upon the
assumption that the exception crafted by the D.C. Court of
Appeals “creates a new rule of D.C. law applicable only to
certain foreign states.” We reject this assumption, wherefor
all Sudan’s challenges fail.
A. Forfeiture
First, we pause to consider the plaintiffs’ contention that
Sudan forfeited its arguments because it failed to raise them in
its initial appeal to this court and before the D.C. Court of
Appeals. “The rule in this circuit is that litigants must raise
their claims on their initial appeal and not in subsequent
hearings following a remand.” Eli Lilly & Co. v. Home Ins.
Co., 794 F.2d 710, 717 (D.C. Cir. 1986) (finding “appellants
waived their constitutional claims” against the Supreme Court
of Indiana’s answer to this court’s certified question). In this
case, Sudan made its arguments for the first time in its
petition for rehearing to the D.C. Court of Appeals.
In Eli Lilly “all of the legal rulings that appellants find to
be constitutionally offensive were stated with some precision
in the District Court’s memorandum opinion.” Id. Not so
here.
As explained in greater detail below, Sudan’s
arguments are predicated upon the way in which the D.C.
Court of Appeals characterized the substantive legal rule it
crafted in its opinion, as contrasted with this court’s
formulation of the certified question.
Sudan cannot
reasonably be faulted for having failed to bring these issues to
our attention during its initial appeal; they did not arise until
the D.C. Court issued its opinion in response to the certified
question. We therefore conclude Sudan’s objections are not
forfeit and proceed to address them on the merits.

Page 6 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

7
B. Merits
Again, each of Sudan’s arguments proceeds from the
premise that the D.C. Court of Appeals crafted a new rule of
substantive law applicable only to foreign states lacking
immunity under § 1605A and not to other possible defendants
in terrorism cases. Sudan’s first argument invokes the foreign
affairs preemption doctrine, which provides that, because the
Constitution entrusts foreign policy exclusively to the
National Government, even if those subject to the state law
could comply with both it and federal law, the “imposition of
any state law create[s] a conflict with federal foreign policy
interests.” Saleh v. Titan Corp., 580 F.3d 1, 13 (D.C. Cir.
2009). Here, says Sudan, “by fashioning a new rule of law
targeting a subset of foreign states ... the D.C. Court of
Appeals ... makes an impermissible foray into the delicate
realm of foreign affairs.” Appellant’s Br. 5.
Next, Sudan contends the D.C. court’s rule violates the
principle that foreign states lacking immunity “shall be liable
in the same manner and to the same extent as a private
individual under like circumstances,” as codified in 28 U.S.C.
§ 1606, because it “applies only to foreign states lacking
immunity under § 1605A.” Appellant’s Br. 7. In our prior
opinion, we explained that § 1606 covers claims brought
under § 1605 but not under § 1605A. 864 F.3d at 809.
Sudan’s argument is that the Congress nevertheless intended
to preserve the non-discrimination requirement for § 1605A
cases that use the pass-through approach. Finally, Sudan
argues in the alternative that, if the non-discrimination
principle “no longer applies by reason of § 1605A’s
enactment,” then the “backdoor lifting” of that limitation on
Sudan’s liability violates the presumption against
retroactivity, as set out in Landgraf v. USI Film Products, 511
U.S. 244, 265 (1994). Appellant’s Br. 12-13.

Page 7 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

8
In short, Sudan’s objections to the D.C. court’s exception
to the presence requirement all presume that D.C law treats
state actors differently from non-state actors. Because we
reject Sudan’s interpretation of the D.C. court’s holding, we
do not reach the substantive question whether it would be
impermissible for the D.C. court to single out certain foreign
sovereigns for IIED liability in terrorism cases.
We formulated the question certified to the D.C. Court of
Appeals as follows:
Must a claimant alleging emotional distress arising
from a terrorist attack that killed or injured a family
member have been present at the scene of the attack
in order to state a claim for intentional infliction of
emotional distress?
Owens, 864 F.3d at 812. That court responded, “For the
reasons that follow, we answer this question ‘No.’” Sudan,
194 A.3d at 39.
The D.C. court went on, however, to restate the certified
question and to describe its holding with specific reference to
the FSIA. The court restated the certified question as follows:
“The D.C. Circuit has asked us to determine whether the
caveat [to § 46] applies to the scenario presented here — an
IIED case where the defendant is a state sponsor of terrorism
denied sovereign immunity by the FSIA.” Id. at 43. Then the
court made clear that its opinion was addressed to “IIED cases
where the jurisdictional elements of § 1605A are satisfied and
the plaintiff’s severe distress arises from a terrorist attack that
killed or injured a member of his or her immediate family.”
Id. at 45; see also id. at 44 (“Our holding excuses the presence

Page 8 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

9
requirement only when plaintiffs demonstrate that [the]
predicates [to § 1605A] are met”).
The D.C. Court of Appeals has previously asserted its
“latitude ... to consider nondesignated questions and to
reformulate, if necessary, the questions as certified.” District
of Columbia v. Beretta, 872 A.2d 633, 641 (D.C. 2005)
(cleaned up). Several circuits have, for their part, allowed as
how their “phrasing of the [certified] question is not intended
to restrict the scope or inquiry by” the state supreme court to
which it is directed. Tillman v. R.J. Reynolds Tobacco, 254
F.3d 1302, 1308 (11th Cir. 2001); see also Mineral County v.
Walker River Irrigation Dist., 900 F.3d 1029, 1034 (9th Cir.
2018); Penguin Group, Inc., v. American Buddha, 640 F.3d
497, 499-500 (2d Cir. 2011); Lamar Homes v. Mid-Continent
Casualty Co., 428 F.3d 193, 201 (5th Cir. 2005). Here, the
D.C. court narrowed its inquiry to cases brought under
§ 1605A of the FSIA, even though our certified question
asked more generally about a “terrorism exception.”
Nevertheless, we do not construe the D.C. court’s opinion
as creating a disparity between state and non-state actors. We
agree with the plaintiffs that the D.C. court was simply
“reasoning by reference to the facts of the case before it.”
Because the court was not faced with a terrorism case
involving a non-state actor, it was not necessary to decide
whether the exception would apply there. We see no reason
to anticipate that, in an appropriate case, the D.C. court would
refuse to extend the exception to a private actor, such as al
Qaeda.
Indeed, as the appellees point out, the D.C. court’s
reasoning as to the purposes of the presence requirement “was
not limited to cases involving foreign sovereigns.” The court
identified three objectives of the presence requirement: to (1)

Page 9 of 10

USCA Case #14-5105

Document #1788680

Filed: 05/21/2019

10
“shield defendants from unwarranted liability”; (2) “ensure
that compensation is awarded only to victims with genuine
claims of severe emotional distress”; and (3) “provide a
judicially manageable standard that protects courts from a
flood of IIED claims.” 194 A.3d at 43 (cleaned up). The
court then concluded the first and second objectives are
inapplicable “in this special context” for reasons true of “acts
of terrorism” more generally. Id. at 42. The court explained
that “acts of terrorism are, by their very nature, designed to
create maximum emotional impact, particularly on third
parties” and “the risk of trivial or feigned claims is
exceedingly low when the anguish derives from a terrorist
attack.” Id. at 43. Hence, although the D.C. court’s opinion
addresses only FSIA cases, its rationale invites application of
the exception to terrorism cases against non-state actors.
Under these circumstances, we decline Sudan’s invitation
to construe the D.C. Court of Appeals’s rule as singling out
certain foreign sovereigns.
III. Conclusion
We therefore affirm the district court’s judgments as to
the plaintiffs’ IIED claims to the extent they are not
inconsistent with our initial panel opinion at 864 F.3d 751
(2017).
So ordered.

Page 10 of 10

Exhibit B

USCA Case #14-5105

Document #1793353

Filed: 06/18/2019

Page 1 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 14-5105

September Term, 2018
1:01-cv-02244-JDB
1:08-cv-01349-JDB
1:08-cv-01361-JDB
1:08-cv-01377-JDB
1:08-cv-01380-JDB
1:10-cv-00356-JDB
1:12-cv-01224-JDB
Filed On: June 18, 2019

James Owens, et al.,
Appellees
v.
Republic of Sudan, Ministry of External
Affairs and Ministry of the Interior of the
Republic of the Sudan,
Appellants
Islamic Republic of Iran, Ministry of Foreign
Affair, et al.,
Appellees
-----------------------------Consolidated with 14-5106, 14-5107,
14-7124, 14-7125, 14-7127, 14-7128,
14-7207, 16-7044, 16-7045, 16-7046,
16-7048, 16-7049, 16-7050, 16-7052

BEFORE:

Garland, Chief Judge; Henderson, Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit
Judges; Ginsburg, Senior Circuit Judge

ORDER
Upon consideration of appellants’ petition for rehearing en banc, and the
absence of a request by any member of the court for a vote, it is

(Page 1 of Total)

USCA Case #14-5105

Document #1793353

Filed: 06/18/2019

Page 2 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 14-5105

September Term, 2018

ORDERED that the petition be denied.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2
(Page 2 of Total)

/s/
Ken R. Meadows
Deputy Clerk

Exhibit C

38

D. C.

194 ATLANTIC REPORTER, 3d SERIES

Recommendation of the Board on Professional Responsibility, it is
ORDERED that the said Carlos E. Perez-Acosta is hereby disbarred by consent.
The Clerk shall publish this order, but
the affidavit shall not be publicly disclosed
or otherwise made available except upon
order of the court or upon written consent
of the respondent.
The Clerk shall cause a copy of this
order to be transmitted to the Chairman of
the Board on Professional Responsibility
and to the respondent, thereby giving him
notice of the provisions of Rule XI, §§ 14
and 16, which set forth certain rights and
responsibilities of disbarred attorneys and
the effect of failure to comply therewith.

,

ments. The District Court, Bates, J., 174
F.Supp.3d 242, denied Sudan’s motion. Sudan appealed. The Court of Appeals, Ginsburg, Senior Circuit Judge, certified the
question of whether a claimant alleging
emotional distress arising from a terrorist
attack that killed or injured a family member had to be present at the scene of the
attack to state a claim for intentional infliction of emotional distress.
Holdings: As matters of first impression,
the Court of Appeals, Fisher, J., held that:
(1) to recover for intentional infliction of
emotional distress, a plaintiff whose
distress arises from harm suffered by
an immediate family member must be
present when the harm occurs, and
(2) presence requirement does not apply
in a case where the defendant is a
state sponsor of terrorism denied immunity by the Foreign Sovereign Immunities Act.
Certified question answered.

REPUBLIC OF SUDAN, Ministry
of External Affairs, et al.,
Appellants,
v.
James OWENS, et al., Appellees.
No. 17-SP-837
District of Columbia Court of Appeals.
Argued February 14, 2018
Decided September 20, 2018
Background: Non-U.S. nationals related
to someone who died or suffered injuries
in bombings outside of United States embassies in Tanzania and Kenya filed suit
against the Republic of Sudan, alleging
that the injuries to their family members
caused them severe emotional distress,
and seeking to recover damages for those
injuries themselves. Following entry of default judgments, the Republic of Sudan
filed motions for relief from the judg-

1. Damages O57.27
As a general matter, to recover for
intentional infliction of emotional distress,
a plaintiff whose emotional distress arises
from harm suffered by a member of his or
her immediate family must be present
when the harm occurs and otherwise satisfy the requisites established in Restatement (Second) of Torts. Restatement
(Second) of Torts § 46(2)(a).
2. Damages O57.27
Requirement in the Restatement (Second) of Torts that a plaintiff asserting a
claim of intentional infliction of emotional
distress for injuries suffered by a family
member is present when the family member suffered the injury does not apply in a
case where the defendant is a state sponsor of terrorism denied immunity by the
Foreign Sovereign Immunities Act. 28

REPUBLIC OF SUDAN v. OWENS
Cite as 194 A.3d 38 (D.C. 2018)

U.S.C.A. § 1602 et seq.; Restatement (Second) of Torts § 46(2)(a).
On Certified Question From the United
States Court of Appeals For the District of
Columbia Circuit (14-5105)
Christopher M. Curran, with whom Nicole Erb, Claire A. DeLelle, Washington,
DC, and Celia A. McLaughlin, were on the
brief, for appellants.
Matthew D. McGill, with whom Stuart
H. Newberger, Clifton S. Elgarten, Aryeh
S. Portnoy, Thomas Fortune Fay, Lochlan
F. Shelfer, Steven R. Perles, Edward B.
Macallister, Jane Carol Norman, Washington, DC, John Vail, Michael J. Miller, and
David J. Dickens, Orange, VA, were on the
brief, for appellees.
Karl A. Racine, Attorney General for
the District of Columbia, Todd S. Kim,
Solicitor General at the time the brief was
filed, Loren L. AliKhan, Deputy Solicitor
General at the time the brief was filed, and
Lucy E. Pittman, Assistant Attorney General, were on the brief for the District of
Columbia as amicus curiae in support of
appellees.
Ellen M. Bublick and George Anhang
were on the brief for Law Professors Ellen
M. Bublick and Paul T. Hayden as amici
curiae in support of appellees.
Before Fisher and Thompson, Associate
Judges, and Farrell, Senior Judge.
Fisher, Associate Judge:
Almost simultaneously on August 7,
1998, al Qaeda terrorists detonated powerful truck bombs outside the United States
embassies in Dar es Salaam, Tanzania, and
Nairobi, Kenya, killing over two hundred
people and injuring more than a thousand
1.

In general, the terrorism exception to the
jurisdictional immunity of a foreign state ap-

D. C.

39

others. Owens v. Republic of Sudan, 864
F.3d 751, 762 (D.C. Cir. 2017). Three years
after the attacks, groups of plaintiffs began filing suit in the United States District
Court for the District of Columbia, seeking
to hold Sudan accountable for its role in
the bombings. Id. Eventually, the case
reached the United States Court of Appeals for the District of Columbia Circuit
and, pursuant to D.C. Code § 11-723 (2012
Repl.), it certified the following question of
District of Columbia law to this court:
Must a claimant alleging emotional distress arising from a terrorist attack that
killed or injured a family member have
been present at the scene of the attack
in order to state a claim for intentional
infliction of emotional distress?
Id. at 812. For the reasons that follow, we
answer this question ‘‘No.’’
I.

Background

The D.C. Circuit and the district court
have fully recounted the relevant facts and
procedural history, see id. at 765–69, 781–
84; Owens v. Republic of Sudan, 826
F.Supp.2d 128, 133–35, 139–46 (D.D.C.
2011), aff’d in part, vacated in part, 864
F.3d 751 (D.C. Cir. 2017), so we will discuss them only briefly here.
Much of the litigation in federal court
centered on the Foreign Sovereign Immunity Act (FSIA), which generally bars suits
against foreign sovereigns in federal and
state courts. 28 U.S.C. § 1604 (2012). The
FSIA contains exceptions, including the
‘‘[t]errorism
exception,’’
28
U.S.C.
§ 1605A, which strips foreign states of immunity, and grants courts jurisdiction, in
cases where certain plaintiffs sue state
sponsors of terrorism for committing, or
‘‘provi[ding] material support’’ for, enumerated terrorist activities.1 § 1605A(a)(1),
plies where plaintiffs seek ‘‘money damages
TTT against a foreign state for personal injury

40

D. C.

194 ATLANTIC REPORTER, 3d SERIES

(2). Section 1605A(c) establishes a private
right of action for the same conduct that
gives rise to jurisdiction; however, only a
subcategory of those plaintiffs who obtain
jurisdiction under the terrorism exception
can also invoke the statutory cause of action. 864 F.3d at 809. The remainder must
assert claims based ‘‘upon alternative
sources of substantive law,’’ such as state
tort law. Id. at 808 (analyzing §§ 1605A
and 1606).
Appellees are a subset of the plaintiffs
who sued Sudan for its role in the embassy
bombings. All of them are non-U.S. nationals related to someone who died or suffered injuries in one of the attacks. They
allege that the injuries to their family
members caused them severe emotional
distress, and seek to recover damages for
that injury to themselves.

The orders finding Sudan liable and
awarding damages to appellees took the
form of default judgments. 864 F.3d at 767.
Sudan did not participate in much of the
litigation and even declined to engage in
the evidentiary hearings held on issues
related to jurisdiction, liability, and damages. Id. However, after the entry of default judgments, Sudan adopted a more
active strategy. It filed motions for relief
from the judgments under Fed. R. Civ. P.
60(b), and appealed the denial of that motion, as well as the underlying default
judgments, to the D.C. Circuit. Id. at 768.
In both proceedings Sudan argued that
appellees could recover for IIED only if
they were present when their family
members were killed or injured, id. at
809–10; Owens v. Republic of Sudan, 174
F.Supp.3d 242, 286–87 (D.D.C. 2016), a
requirement the district court had not
imposed, see, e.g., Onsongo, 60 F.Supp.3d
at 149. On appeal, the D.C. Circuit reviewed our case law and was ‘‘genuinely
uncertain’’ whether this jurisdiction
‘‘would apply the presence requirement in
the Second Restatement of Torts to preclude recovery for IIED by family members absent from the scene of a terrorist
bombing.’’ 864 F.3d at 812. Consequently,
it certified to us the question of law quoted above. Id.

The district court determined, 826
F.Supp.2d at 148, and the D.C. Circuit
later affirmed, 864 F.3d at 769, that it had
jurisdiction over appellees’ claims under
§ 1605A. However, the district court also
concluded that appellees could not rely on
§ 1605A(c)’s cause of action and would instead need to invoke an independent legal
basis for recovery. 826 F.Supp.2d at 153.
After conducting a choice of law analysis,
the court determined that District of Columbia law governed the ‘‘claims that [did]
not arise under the federal cause of action
at § 1605A(c),’’ id. at 157, and, applying
our tort law, held Sudan liable to appellees
for intentional infliction of emotional distress (‘‘IIED’’). See, e.g., Onsongo v. Republic of Sudan, 60 F.Supp.3d 144, 149
(D.D.C. 2014), aff’d in part, vacated in
part sub nom. Owens v. Republic of Sudan, 864 F.3d 751 (D.C. Cir. 2017).

The certified question raises two issues
of first impression. We must, as a general
matter, identify the elements of an IIED
claim arising from injury to a member of
the plaintiff’s immediate family. Depending
on the answer to that question, we may
then need to determine whether to permit
more expansive liability when injury to the

or death TTT caused by an act of torture,
extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support or resources for such an act if TTT en-

gaged in by an official, employee, or agent of
[a] foreign state TTT designated as a state
sponsor
of
terrorism.’’
28
U.S.C.
§ 1605A(a)(1)–(2)(A)(i)(I).

II.

The General Rule

REPUBLIC OF SUDAN v. OWENS
Cite as 194 A.3d 38 (D.C. 2018)

family member was caused by a terrorist
attack.
Our analysis starts with § 46 of the
Restatement (Second) of Torts (Am. Law
Inst. 1965) (‘‘Second Restatement’’ or ‘‘Restatement Second’’), which defines the elements of IIED liability as follows:
(1) One who by extreme and outrageous conduct intentionally or recklessly
causes severe emotional distress to another is subject to liability for such emotional distress, and if bodily harm to the
other results from it, for such bodily
harm.
(2) Where such conduct is directed at a
third person, the actor is subject to liability if he intentionally or recklessly
causes severe emotional distress
(a)

(b)

to a member of such person’s
immediate family who is present
at the time, whether or not such
distress results in bodily harm,
or
to any other person who is present at the time, if such distress
results in bodily harm.

Section 46(1) governs IIED claims
where the defendant ‘‘intentionally or
recklessly causes severe emotional distress’’ to the plaintiff. In such cases the
defendant typically has targeted the
plaintiff. See, e.g., Howard Univ. v. Best,
484 A.2d 958, 985–86 (D.C. 1984) (holding
that plaintiff ‘‘made out a prima facie case
of intentional infliction of emotional distress TTT [by] demonstrat[ing] repeated
‘sexual harassment’ by TTT her supervisor’’). By contrast, § 46(2)(a) applies
when defendants ‘‘direct’’ their extreme
and outrageous acts at a third person and
‘‘intentionally or recklessly cause[ ] severe
emotional distress’’ to a member of that
2.

It appears that we have not applied
§ 46(2)(b) in the District of Columbia, and

D. C.

41

person’s ‘‘immediate family who is present at the time.’’ 2 This court has addressed many § 46(1)-type claims and, in
doing so, has expressly adopted the Second Restatement’s approach. See, e.g.,
Sere v. Grp. Hospitalization, Inc., 443
A.2d 33, 37 (D.C. 1982) (quoting elements
of IIED from Second Restatement
§ 46(1) ); Waldon v. Covington, 415 A.2d
1070, 1076 & n.21 (D.C. 1980) (quoting
from § 46 of Second Restatement). However, none of our published opinions has
analyzed an IIED claim where § 46(2)(a)
might apply. As a result, before we can
discuss cases involving terrorist attacks,
we must determine whether § 46(2)(a),
and with its requirement that the plaintiff
be ‘‘present at the time,’’ generally governs IIED claims where the plaintiff’s
distress was caused by harm to a member of his or her immediate family.
We conclude that it does. As noted,
this court has embraced the Restatement
Second’s approach to IIED liability. Subsection (2)(a) is an integral part of that
regime and, in formally adopting that
subsection today, we make explicit what
our earlier cases implied. This holding is
consistent with our customary caution
when facing ‘‘the problem of potentially
infinite liability that has been of central
judicial concern in emotional distress
cases.’’ Hedgepeth v. Whitman Walker
Clinic, 22 A.3d 789, 801–02 (D.C. 2011)
(en banc). For decades, this court permitted relief for negligent infliction of emotional distress only ‘‘if the distress result[ed] from a physical impact and [was]
accompanied by physical injury.’’ Id. at
796. While we ultimately abandoned that
rule, we replaced it with new ones deliberately crafted to contain ‘‘self-limiting
principle[s],’’ id. at 812, and to avoid ‘‘virthere is no need to discuss that section here.

42

D. C.

194 ATLANTIC REPORTER, 3d SERIES

tually infinite liability,’’ Williams v. Baker, 572 A.2d 1062, 1069 (D.C. 1990) (en
banc).3
[1] Like the rules cabining relief for
negligent infliction of emotional distress,
§ 46(2)(a) defines this related tort to guard
against potentially unbounded liability. Indeed, the reporters of the Second Restatement explained that § 46(2)(a)’s ‘‘presence’’ requirement exists, in part, to serve
that very goal. § 46 cmt. l. Limiting recovery to those who are present and perceive
the harm as it happens prevents excessive
liability while affording relief to plaintiffs
who suffer a uniquely traumatic experience. Accordingly, we hold that, as a general matter, to recover for IIED, a plaintiff
whose emotional distress arises from harm
suffered by a member of his or her immediate family must be ‘‘present’’ when the
harm occurs and otherwise satisfy the rule
established
in
Restatement
Second
4
§ 46(2)(a).
III.

The FSIA Terrorism Exception
to the Presence Requirement

[2] A caveat to § 46 of the Second
Restatement leaves open the possibility of
3.

For example, in Williams, we held that
‘‘[w]here the plaintiff was within the zone of
physical danger and as a result of defendant’s
negligence feared for his or her own safety,
TTT it is reasonable to permit the plaintiff to
recover as an element of damages mental
distress caused by fear for the safety of a
member of the plaintiff’s immediate family
who was endangered by the negligent act.’’
572 A.2d at 1069. This ‘‘zone of danger’’ test
is essentially a requirement that the plaintiff
be present.

4.

We adhere to the Second Restatement even
though the American Law Institute has published a new version with a slightly modified
approach to IIED liability. See Restatement
(Third) of Torts: Liab. for Physical & Emotional Harm § 46 (2012). This court has proceeded cautiously in adopting the Third Restatement. See Hedgepeth, 22 A.3d at 800 n.15

‘‘other circumstances’’ in which a defendant could face liability for IIED, including ‘‘situations in which [the plaintiff’s]
presence at the time may not be required.’’
§ 46 Caveat & cmt. l.5 The D.C. Circuit
has asked us to determine whether the
caveat applies to the scenario presented
here—an IIED case where the defendant
is a state sponsor of terrorism denied sovereign immunity by the FSIA. See 864
F.3d at 812. Having considered the reasons for the requirement in more typical
cases, we conclude that presence at the
scene is not required in this special context. Accordingly, we answer the certified
question in the negative.
The presence requirement serves many
purposes. It shields defendants from unwarranted liability, tries to ensure that
compensation is awarded only to victims
with genuine claims of severe emotional
distress, and provides a judicially manageable standard that protects courts from a
flood of IIED claims. See Restatement
Second § 46 cmt. l. In FSIA terrorism
cases, however, the presence requirement
is not needed to achieve these goals: the
very facts that justify stripping foreign
(declining, even while sitting en banc, to endorse more than select comments from the
(then-draft) Restatement Third section on
negligent infliction of emotional distress).
Moreover, as a panel of the court, we cannot
overrule prior decisions that have relied upon
§ 46(1) of the Second Restatement. See M.A.P.
v. Ryan, 285 A.2d 310, 312 (D.C. 1971).
Adopting the Restatement Third approach for
§ 46(2)-type claims would create a confusing
and unseemly situation where some IIED
claims were governed by the Second Restatement and others by the Third.
5.

‘‘The Institute expresses no opinion as to
whether there may not be other circumstances under which the actor may be subject
to liability for the intentional or reckless infliction of emotional distress.’’ Restatement
(Second) of Torts § 46 Caveat (Am. Law Inst.
1965)

REPUBLIC OF SUDAN v. OWENS
Cite as 194 A.3d 38 (D.C. 2018)

sovereigns of their immunity allay the concerns that the presence requirement was
designed to address. As a result, adhering
to the rule in this context would serve only
to create a high risk that compelling claims
will go uncompensated. By establishing the
caveat, the Restatement Second sought to
prevent such unfair outcomes; by invoking
it here, we do just that.
We begin our analysis by considering
the role of the presence requirement in
ensuring fairness to defendants. As noted
previously, § 46(2)(a) governs cases in
which the plaintiffs suffer severe emotional
distress from conduct directed at a member of their immediate family. The Restatement Second appreciated that, in such
cases, defendants might not anticipate the
degree to which their conduct would affect
family members absent from the scene—
individuals whom such defendants did not
target and did not see when they engaged
in their extreme and outrageous conduct.
See § 46 cmt. l. Requiring that the plaintiff
have been ‘‘present at the time’’ mitigated
this concern. ‘‘[W]here, for example, a husband is murdered in the presence of his
wife, the actor may know that it is substantially certain, or at least highly probable, that it will cause severe emotional
distress to the plaintiff.’’ Id. Although
§ 46(2)(a) separately requires that the defendant ‘‘intentionally or recklessly cause’’
the plaintiff’s anguish, the wife’s presence
at the time gives added assurance that the
defendant knew he would cause her severe
emotional distress.6
Defendants in FSIA terrorism cases do
not need this additional protection. Acts of
terrorism are, by their very nature, designed ‘‘ ‘to create maximum emotional im6.

Sudan contends that it did not recklessly
disregard the risk that its conduct would
harm appellees, much less intend that result.
We reiterate that Sudan defaulted on the issue
of liability, 864 F.3d at 767, and belatedly
challenged the district court’s conclusions re-

D. C.

43

pact,’ particularly on third parties.’’ Estate
of Heiser v. Islamic Republic of Iran, 659
F.Supp.2d 20, 27 (D.D.C. 2009) (quoting
Eisenfeld v. Islamic Republic of Iran, 172
F.Supp.2d 1, 7 (D.D.C. 2000) ); see 18
U.S.C. § 2331(1) (definition of ‘‘international terrorism’’ includes violent acts that
‘‘appear to be intended TTT to intimidate or
coerce a civilian population TTT [or] to
influence the policy of a government by
intimidation or coercion’’); D.C. Code § 223152 (1) (2012 Repl.) (‘‘act of terrorism’’
similarly defined). Therefore, when foreign
states provide material support for terrorist attacks, it should come as no surprise
that the acts they facilitated have caused
severe emotional distress to persons who
were not present at the time.
Another purpose of the presence requirement is to increase the likelihood that
only plaintiffs with ‘‘genuine’’ complaints of
severe distress can recover. See Restatement Second § 46 cmt. l. Yet, the risk of
trivial or feigned claims is exceedingly low
when the anguish derives from a terrorist
attack that killed or injured a member of
the plaintiff’s immediate family. Individuals naturally experience severe distress in
response to such horrific events. Consequently, in such circumstances, courts
need not rigidly enforce the presence requirement to ward off disingenuous claims.
Lastly, the presence requirement serves
the goal of avoiding ‘‘virtually unlimited’’
liability and recognizes ‘‘the practical necessity of drawing the line somewhere.’’
Id. Sudan emphasizes this point, arguing
that invoking the caveat in this case would
untether the tort from judicially manageable standards and unwisely discard our
garding that issue under the demanding standard of Fed. R. Civ. P. 60(b). Perhaps more
importantly, whether Sudan acted with the
requisite mental state is beyond the scope of
the question certified to us. See id. at 812.

44

D. C.

194 ATLANTIC REPORTER, 3d SERIES

carefully considered limits on liability for
causing emotional distress. Indeed, Sudan
suggests that any resort to the caveat is
suspect.
We agree that the caveat should be invoked only rarely, but Sudan’s argument
seems to treat it as a nullity. Relaxing the
presence requirement in cases where
§ 1605A applies should not open the floodgates to litigation. Indeed, the FSIA terrorism exception we recognize here is
quite limited in scope. The provisions of 28
U.S.C. § 1605A are restricted to (1) plaintiffs who meet precise qualifications,
§ 1605A(a)(2)(A)(ii); (2) a limited range of
conduct (in this instance ‘‘extrajudicial killing’’), § 1605A(a)(1); and (3) defendants
that have been classified as state sponsors
of terrorism, § 1605A(a)(2)(A)(i). Our holding excuses the presence requirement only
when plaintiffs demonstrate that these
predicates are met. And even when they
can make such a showing, plaintiffs may
obtain relief only upon satisfying the remaining elements of § 46(2)(a)—that is,
they must establish that the defendant engaged in ‘‘extreme and outrageous conduct’’ and ‘‘intentionally or recklessly’’
caused the plaintiffs’ ‘‘severe emotional
distress’’ by harming a member of their
‘‘immediate family.’’ These are judicially
manageable standards that should be sufficient to prevent a precipitous slide down
the proverbial slippery slope.
This analysis demonstrates that when
§ 1605A applies, the need for the presence
requirement does not. In such circumstances, rigid adherence to the rule would
do little more than shield culpable defendants from liability and deny relief to de7.

Sudan argues that if Congress wanted appellees and similarly situated plaintiffs to recover damages, it would have made them
eligible to plead the cause of action created by
§ 1605A(c). Instead, it required such plaintiffs
to rely on state tort law, which in some instances bars their recovery. However, the fact

serving plaintiffs. The caveat exists precisely to avoid such unfair results, which is
why we choose to invoke it.
Furthermore, precluding liability in contexts like the one at bar is not simply
unjust but also unwise, as doing so would
forego an opportunity to advance a policy
goal of national importance. Congress enacted § 1605A ‘‘to deter [sovereign nations] from engaging, either directly or
indirectly, in terrorist acts.’’ 864 F.3d at
776. It viewed the goal of deterrence as
sufficiently important—and the means of
civil liability sufficiently effective—that it
curtailed sovereign immunity to promote
it. Invoking the caveat here will increase
the IIED liability of foreign states if they
sponsor terrorism, furthering the objective
of deterrence that Congress has emphasized. While § 1605A does not dictate our
response to the certified question and we
are not obligated to promote the purposes
of that statute, it is sound jurisprudence to
consider how our decisions will affect policies of national significance. Here, Congress deems civil litigation a useful tool in
the nation’s efforts to deter foreign states
from sponsoring terrorism. Our holding
today is consistent with that legislative
judgment.7
At the same time, we emphasize that our
decision is not based simply on the outrageousness of the actions at issue. Sudan
correctly reminds us that conduct must
always be ‘‘extreme and outrageous’’ even
to make out a prima facie case of IIED.
And we take Sudan’s point that creating
gradations among extreme and outrageous
wrongs is a precarious basis for determinthat Congress left it to the states to decide
whether plaintiffs such as appellees may recover in no way suggests that it wanted to
prevent such plaintiffs from obtaining relief.
Nor does that legislative decision curtail our
common law authority to shape our own tort
law.

D. C.

REPUBLIC OF SUDAN v. OWENS
Cite as 194 A.3d 38 (D.C. 2018)

ing whether and when to enforce the presence requirement. Rather, we endorse an
FSIA terrorism exception because few
IIED claims involve facts that address the
concerns of the presence requirement
while simultaneously touching a matter of
such national significance.
Arguing against excusing the presence
requirement, Sudan relies heavily on the
note to Restatement Third § 46. There,
the reporters reviewed federal district
court decisions that have declined or failed
to apply the presence requirement in terrorism cases and concluded that this trend,
although ‘‘worthy of note, TTT falls well
short of the development of another exception to the presence requirement that the
Institute would endorse.’’ Restatement
(Third) of Torts: Liab. for Physical &
Emotional Harm § 46 reporter’s note cmt.
m (Am. Law Inst. 2012). This statement
does not draw our holding into question.
The reporters primarily criticized the district courts for treating family members of
those harmed in terrorist attacks as ‘‘direct’’ victims under Restatement Second
§ 46(1), see id., a rationale we do not rely
on here.8
In sum, this is a situation contemplated
by the Second Restatement ‘‘in which
presence at the time [should] not be required.’’ § 46 cmt. l. We see little need to
8.

Indeed, we share the reporters’ skepticism.
Terrorists undoubtedly intend to distress the
public at large—see, for example, the definitions of terrorism found in 18 U.S.C.
§ 2331(1) and D.C. Code § 22-3152 (1), quoted above. Perhaps it could be proven in an
individual case (such as hostage taking) that

45

enforce the presence requirement in IIED
cases where the jurisdictional elements of
§ 1605A are satisfied and the plaintiff’s
severe distress arises from a terrorist attack that killed or injured a member of his
or her immediate family. Excusing the
presence element in such cases may further deter foreign states from sponsoring
terrorism and allow deserving plaintiffs to
hold culpable defendants accountable for
their conduct. At the same time, making
such an exception is not likely to produce
the type of unfair and unbounded liability
that the presence element is intended to
prevent. In this limited context, therefore,
we hold that the presence requirement
does not apply.
IV.

Conclusion

For the reasons stated, we answer the
certified question ‘‘No.’’ In accordance with
D.C. Code § 11–723 (g) (2012 Repl.), the
Clerk is directed to transmit a copy of this
opinion to the United States Court of Appeals for the District of Columbia Circuit,
to each of the parties, and to amici.

,
the terrorists intended to cause distress to
family members in particular, but we are unwilling to conclude as a matter of law that
they do so in all circumstances. In other
words, we think this case is governed by
§ 46(2)(a) of the Second Restatement, not by
§ 46(1).

